     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION



 DOD Improved Its Accountability for Vehicles Provided
  to the Afghan National Security Forces, but Should
      Follow Up on End-Use Monitoring Findings




                                          January 12, 2012




SIGAR Audit-12-4 Security/ANSF Vehicle Accountability
     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION


January 12, 2012

The Honorable Leon E. Panetta
Secretary of Defense
General James N. Mattis
Commander, U.S. Central Command
General John R. Allen
Commander, U.S. Forces-Afghanistan, and
  Commander, International Security Assistance Force
Lieutenant General Daniel P. Bolger
Commanding General, NATO Training Mission-Afghanistan/
   Combined Security Transition Command-Afghanistan
Vice Admiral William E. Landay, III
Director, Defense Security Cooperation Agency


This report discusses the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s (SIGAR) audit of vehicles provided with U.S. funds to the Afghan National Security
Forces (ANSF). This report includes one recommendation to the Commanding General, Combined
Security Transition Command-Afghanistan (CSTC-A) to establish a system to track and follow up on
findings identified in end-use monitoring vehicle inspections as well as require status updates by the
parties involved to ensure resolution.

A summary of this report is on page ii. When preparing the final report, SIGAR obtained comments from
CSTC-A, which concurred with the recommendation. These comments are reproduced in appendix II.
SIGAR conducted this performance audit under the authority of Public Law No. 110-181, as amended;
the Inspector General Act of 1978; and the Inspector General Reform Act of 2008.




Steven J Trent
Acting Special Inspector General
  for Afghanistan Reconstruction




SIGAR Audit-12-4 Security/ANSF Vehicle Accountability                                               Page i
                                                           SIGAR Audit-12-4                              January 2012


                SIGAR
Special Inspector General for Afghanistan Reconstruction
                                                           DOD Improved Its Accountability for Vehicles Provided to
                                                            the Afghan National Security Forces, but Should Follow
                                                                     Up on End-Use Monitoring Findings

What SIGAR Reviewed
A key objective of coalition efforts in Afghanistan is to build the country’s capacity to provide for its own security by
training and equipping the Afghan National Security Forces (ANSF). Through December 2010, the Combined Security
Transition Command-Afghanistan (CSTC-A) had provided more than 52,000 vehicles, including light tactical vehicles and
High Mobility Multi-purpose Wheeled Vehicles, worth approximately $4.0 billion for the ANSF; and has plans to provide
thousands more purchased primarily with the Afghanistan Security Forces Fund. The United States has provided most of
these vehicles using an adaptation of the Foreign Military Sales program, a government-to-government program for
selling U.S. defense equipment, services, and training to foreign entities. TACOM Life Cycle Management Command
(TACOM LCMC) procures most vehicles for the ANSF. Vehicles are transported to Afghanistan by contractors for the
U.S. Military Surface Deployment and Distribution Command (SDDC). SIGAR’s objectives were to (1) determine whether
CSTC-A could account for the vehicles it provided to the ANSF and (2) assess CSTC-A’s oversight for the vehicles
provided. To accomplish these objectives, SIGAR reviewed vehicle purchase and delivery documentation, documented a
random sample of vehicles, physically inspected vehicles, and interviewed CSTC-A and ANSF officials. SIGAR conducted
work at CSTC-A headquarters in Kabul, Afghanistan; TACOM LCMC in Harrison Township, Michigan; and in Washington,
D.C.; from December 2010 to December 2011 in accordance with generally accepted government auditing standards.
SIGAR suspended work from January 2011 to April 2011 to allow TACOM LCMC to collect vehicle identification data and
CSTC-A to conduct a vehicle inventory.

What SIGAR Found
While TACOM LCMC and CSTC-A were able to account for nearly all vehicles provided to the ANSF, CSTC-A did not
regularly file claims for damages or missing equipment. TACOM LCMC provided records for about 17,800 Afghan
National Army (ANA) and 8,900 Afghan National Police (ANP) vehicles shipped between October 2007 and December
2010. Of these, CSTC-A provided evidence of the disposition of about 99 percent of the ANA vehicles and 100 percent of
the ANP vehicles. To prepare for SIGAR’s audit, CSTC-A conducted a nationwide inventory of U.S-provided vehicles and
found that it was providing fuel to the ANA for destroyed vehicles. As a result, CSTC-A had saved about $370,000, as of
November 2011, by reducing ANA fuel deliveries by 200,000 liters. Overall, SIGAR estimates that for fiscal year 2012,
CSTC-A will save almost $5 million by reducing fuel deliveries to the ANA. Also, CSTC-A had not previously submitted
claims for vehicles damaged or equipment and parts lost or stolen during transit and, therefore, CSTC-A was not
reimbursed by the transportation contractors. Rather, CSTC-A paid separately for repairs and the replacement of
missing equipment and parts. Once SIGAR identified this issue in May 2011, CSTC-A took steps to submit claims by filing
transportation discrepancy reports. Doing so will help ensure the United States is not expending funds unnecessarily for
repairs and the replacement of missing equipment and parts. As of November 2011, SDDC had approved 10 claims
valued at over $339,000. CSTC-A has 39 additional claims in process totaling $250,000.
CSTC-A generally met oversight requirements for end-use monitoring (EUM) of U.S.-provided vehicles. During SIGAR’s
May 2011 fieldwork, CSTC-A conducted a vehicle-specific EUM inspection and reviewed property books, procedures,
vehicle location, and operational status. Following SIGAR’s fieldwork, CSTC-A instituted additional EUM requirements
for vehicles, including reviews of ANA and ANP property books and maintenance records, and accounting for destroyed
vehicles. While CSTC-A EUM has identified issues regarding ANSF vehicles, it did not have a system in place to ensure
that EUM findings were addressed. For example, at two ANA locations, the EUM team noted vehicle repairs were
taking over a year, but CSTC-A did not have any record if this matter was resolved.

What SIGAR Recommends
Because CSTC-A took steps during the course of SIGAR’s audit to conduct an inventory of ANSF vehicles and file
transportation discrepancy reports, SIGAR is not making any recommendations addressing these matters. However, to
enhance oversight of vehicles provided by the United States, SIGAR recommends that the Commanding General,
CSTC-A, establish a system to track and follow up on vehicle issues identified in EUM inspections, including status
updates by the parties involved to ensure resolution of the findings. CSTC-A provided comments on a draft of this
report and concurred with the recommendation, noting that it had already taken steps to address it.

   For more information contact: SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil



SIGAR Audit-12-4 Security/ANSF Vehicle Accountability                                                                Page ii
TABLE OF CONTENTS

Background ................................................................................................................................................... 2
CSTC-A Accounted for Vehicles Provided to the ANSF, but Did Not Regularly File
   Reports for Damage and Loss ................................................................................................................. 5
CSTC-A’S EUM of ANSF Vehicles Met Requirements, but Additional Follow Up is
   Needed ................................................................................................................................................... 9
Conclusion ................................................................................................................................................... 11
Recommendation........................................................................................................................................ 11
Comments ................................................................................................................................................... 11
Appendix I: Scope and Methodology ......................................................................................................... 12
Appendix II: Comments from the NATO Training Mission-Afghanistan/Combined
   Security Transition Command-Afghanistan.......................................................................................... 14


TABLES

Table 1: TACOM LCMC-Procured Vehicles Shipped to Afghanistan from October
    2007 to December 2010 ......................................................................................................................... 3
Table 2: Projected Disposition of Vehicles With UIIs Procured and Shipped to
    the ANSF from October 2007 to December 2010 .................................................................................. 7


FIGURES AND PHOTOS

Figure 1: Transportation Discrepancy Report Process ................................................................................. 4
Photo 1: Radio Missing from ANP Bus ......................................................................................................... 8




SIGAR Audit-12-4 Security/ANSF Vehicle Accountability                                                                                                 Page iii
ACRONYMS

ANA                      Afghan National Army
ANP                      Afghan National Police
ANSF                     Afghan National Security Forces
CSTC-A                   Combined Security Transition Command-Afghanistan
DCMA                     Defense Contract Management Agency
DOD                      Department of Defense
DSCA                     Defense Security Cooperation Agency
ECOD                     estimated cost of damage
EUM                      end-use monitoring
FMS                      Foreign Military Sales
GAO                      Government Accountability Office
MOD                      Ministry of Defense
MOI                      Ministry of Interior
SDDC                     Surface Deployment and Distribution Command
SIGAR                    Special Inspector General for Afghanistan Reconstruction
TACOM LCMC               TACOM Life Cycle Management Command
TDR                      Transportation Discrepancy Report
UII                      unique item identifier




SIGAR Audit-12-4 Security/ANSF Vehicle Accountability                               Page iv
    DOD Improved Its Accountability for Vehicles Provided to the Afghan National
      Security Forces, but Should Follow Up on End-Use Monitoring Findings


A key objective of coalition efforts in Afghanistan is to build the country’s capacity to provide for its own
security by training and equipping the Afghan National Security Forces (ANSF). Between fiscal years
2005 and 2011, the U.S. Congress appropriated about $39.5 billion for the Afghanistan Security Forces
Fund for training and equipping the ANSF, which includes the Afghan National Army (ANA) and Afghan
National Police (ANP). As part of this effort, through December 2010, the United States had provided
more than 52,000 vehicles to the ANA and ANP worth approximately $4.0 billion and has plans to
provide thousands more purchased primarily with the Afghanistan Security Forces Fund.

The United States has provided most of these vehicles using an adaptation of the Foreign Military Sales
(FMS) program, 1 a government-to-government program for selling U.S. defense equipment, services,
and training to foreign entities. The FMS program is managed by the Defense Security Cooperation
Agency (DSCA), which tasks military departments and Department of Defense (DOD) agencies to
implement FMS cases. The U.S. Army Security Assistance Command implements FMS cases for almost
all vehicles, and the U.S. Army TACOM Life Cycle Management Command (TACOM LCMC) procures most
vehicles for the ANSF. Vehicles are transported to Afghanistan by contractors managed by the U.S.
Military Surface Deployment and Distribution Command (SDDC). 2 The Combined Security Transition
Command-Afghanistan (CSTC-A) 3 in Kabul, Afghanistan, is the U.S. entity responsible for planning,
programming, and implementing U.S. training and equipping efforts for the ANSF, including accounting
for the receipt and issuance of all U.S.-provided vehicles to the ANSF once the vehicles arrive in
Afghanistan. CSTC-A also utilizes contractors to assist with the delivery and the maintenance of vehicles.

Following audit reports by the U.S. Government Accountability Office (GAO) and the DOD Office of the
Inspector General that identified serious deficiencies in the accountability of equipment provided to
Iraq, 4 Section 1228 of the 2008 National Defense Authorization Act required the President to
implement, within 180 days, a program of registration and monitoring for defense articles provided to
Iraq. 5 In January 2009, DOD issued a memorandum applying these requirements to Afghanistan 6 in

1
Throughout this report, we refer to this adaptation of FMS as “pseudo-FMS.”
2
 SDDC is the Army Service Component Command of the U.S. Transportation Command and is a major subordinate
command to Army Materiel Command. The command also partners with the commercial transportation industry
as the coordinating link between DOD surface transportation requirements and the capability industry provides.
3
 CSTC-A is a joint command with the NATO Training Mission-Afghanistan. Because CSTC-A distributes and manages
all U.S. funding to support the ANSF, this report refers to CSTC-A.
4
 GAO-07-771, Stabilizing Iraq: DOD Cannot Ensure that U.S.-Funded Equipment Has Reached Iraqi Security Forces,
July 31, 2007; and SPO-2008-1, Assessment of the Accountability of Arms and Ammunition Provided to the Security
Forces of Iraq, July 3, 2008. While SPO-2008-1 was issued in July 2008, DOD Office of Inspector General briefed
DOD and congressional committees on its findings in November and December 2007.
5
 National Defense Authorization Act for Fiscal Year 2008, Pub. L. No. 110-181, § 1228, 122 Stat. 377-378 (January
28, 2008).
SIGAR Audit-12-4 Security/ANSF Vehicle Accountability                                                       Page 1
response to a GAO report citing lapses in accountability of weapons provided to the ANSF. 7 The
memorandum required that DOD keep detailed records of the origin, shipping, and distribution of all
items transferred to the ANSF and required a program of monitoring most vehicles provided to the ANA
and ANP.

We initiated this audit to determine how DOD implemented vehicle tracking requirements in
Afghanistan. Specifically, our objectives were to (1) determine whether the CSTC-A could account for
the vehicles it provided to the ANSF and (2) assess CSTC-A’s oversight for the vehicles provided. In
January 2011, we agreed to delay our fieldwork in Afghanistan because CSTC-A reported that it could
not readily provide the documentation required to address our questions and was in the process of
conducting a nationwide vehicle inventory in conjunction with the ANA and ANP.

To accomplish our objectives, we reviewed vehicle purchase and delivery documentation and
interviewed TACOM LCMC, CSTC-A, SDDC, and ANSF officials. We limited our scope to vehicles ordered
and shipped by TACOM LCMC from October 2007 through December 2010, nearly 31,000 of the more
than 52,000 vehicles purchased by CSTC-A. Based on vehicle identification data provided by TACOM
LCMC, we randomly selected 289 vehicles for the ANA and 289 vehicles for the ANP in order to reach
general conclusions about CSTC-A’s ability to account for vehicles purchased by the United States. 8 The
sample was selected from the almost 27,000 vehicles (out of nearly 31,000) for which TACOM LCMC
could provide a unique item identifier (UII). 9 In Afghanistan, we examined CSTC-A records and met with
officials at CSTC-A headquarters, examined documentation indicating the transfer and location of each
vehicle in our sample, and conducted physical checks of selected vehicles at ANA and ANP depots near
Kabul and at an ANA base near Mazar-e-Sharif. We also discussed vehicle accountability with officials
from the Afghan Ministry of Defense (MOD) and Ministry of Interior (MOI) 10 and with contractors
involved in building the ANSF’s capacity to account for and maintain its vehicles. We conducted work in
Kabul and Mazar-e-Sharif, Afghanistan; TACOM LCMC in Harrison Township, Michigan; and in
Washington, D.C.; from December 2010 to December 2011 in accordance with generally accepted
government auditing standards. We suspended work from January 2011 to April 2011 to allow TACOM
LCMC to collect vehicle identification data and for CSTC-A to conduct a vehicle inventory. See appendix I
for a more detailed discussion of our scope and methodology.


BACKGROUND

According to TACOM LCMC data, it procured and shipped nearly 31,000 vehicles to the ANSF between
October 2007 and December 2010. Most vehicles purchased were light tactical vehicles, mainly Ford
Ranger pickup trucks. Other vehicles included High Mobility Multi-purpose Wheeled Vehicles; medium
tactical vehicles, such as water and tanker trucks; heavy tactical vehicles, such as fire trucks; and
construction and material handling vehicles, such as forklifts and cranes. Table 1 shows the number of
vehicles procured and shipped to the ANA and ANP by TACOM LCMC during the period.
6
 Assistant Secretary of Defense for Global Strategic Affairs Memorandum, “Registration and Monitoring of Defense
Articles in Afghanistan,” January 29, 2009.
7
 GAO-09-267, Lack of Systemic Tracking Raises Significant Accountability Concerns about Weapons Provided to
Afghan National Security Forces, January 30, 2009.
8
 Each sample has a 95 percent confidence with a margin of error of plus or minus 5 percent. This interval would
contain the actual population value for 95 percent of the samples we could have drawn.
9
 For purposes of this report, we use UII to include vehicle identification numbers or other numbers used to identify
an individual vehicle.
10
    The MOD has authority over the ANA; the MOI has authority over the ANP.
SIGAR Audit-12-4 Security/ANSF Vehicle Accountability                                                        Page 2
Table 1: TACOM LCMC-Procured Vehicles Shipped to Afghanistan from
October 2007 to December 2010
Vehicle Type                                        Quantity Shipped for     Quantity Shipped         Total Shipped
                                                                   ANA                for ANP

Light tactical vehicles                                           10,010                 7,851               17,861

High Mobility Multi-purpose Wheeled Vehicles                        4,990                  775                 5,765

Medium tactical vehicles                                            4,855                  456                 5,311

Construction and material handling vehicles                         1,002                  221                 1,223

Heavy tactical vehicles                                              321                   280                    601

Total                                                             21,178                 9,583               30,761

Source: SIGAR analysis of TACOM LCMC data.

The U.S. government provided the majority of the vehicles for the ANSF through an adaptation of the
FMS program, referred to as “pseudo-FMS,” which is overseen by DSCA. CSTC-A prepares the FMS
documentation, submits it on behalf of MOD and MOI, and uses the Afghanistan Security Forces Fund to
purchase the equipment. CSTC-A also acts as the receiving authority; that is, equipment is shipped to
CSTC-A in Afghanistan before ownership is transferred to the ANA or ANP. Once a vehicle is transferred
to the ANSF, CSTC-A conducts routine end-use monitoring (EUM) to help ensure U.S.-provided
equipment is used in accordance with the Foreign Assistance Act and Arms Export Control Act. 11 For
vehicles, routine EUM means that CSTC-A is required to report incidents of misuse that it observes while
carrying out other security assistance duties, but vehicles are not regularly inspected.

The procurement process begins with an initial requirements determination by the ANA and ANP with
the assistance of CSTC-A, which results in a list of personnel and equipment requirements known as a
tashkil. Once the tashkil is approved by MOD or MOI, respectively, CSTC-A and TACOM LCMC prepare a
draft Memorandum of Request, which outlines new purchase requirements, including the item
description, number to be purchased, estimated cost, justification, and destination. The memorandum
is submitted to the U.S. Army Security Assistance Command, the entity responsible for implementing
FMS cases for the U .S. Army, and to DSCA for approval. Once the memorandum is approved, TACOM
LCMC writes the Letter of Offer and Acceptance, which itemizes the defense articles and, when
implemented, becomes the official offer by the U.S. government. Funding is then provided to TACOM
LCMC to make contractual obligations to procure the vehicles. Other than light tactical vehicles and
some construction vehicles, the vehicles are produced in the United States. When the vehicles are
ready for shipment, the Defense Contract Management Agency (DCMA), the DOD entity responsible for
contract administration, accepts the vehicles on behalf of the U.S. government.

After DCMA accepts the vehicles, they are transported by a SDDC contractor from the factory to
Afghanistan. 12 Most vehicles transit through Karachi, Pakistan, where they are prioritized and loaded on
11
 Foreign Assistance Act of 1961: Pub. L. No. 87-195, 75 Stat. 424 (September 4, 1961), 22 U.S.C. § 2151 et seq.
The Arms Export Control Act (Pub. L. No. 90-629, as amended) mandates a program that gives the President
authority to control the import and export of defense articles and services.
12
 The carriers contracted to ship U.S goods to Afghanistan are American President Lines, Maersk Line Limited,
Hapag Lloyd, American Cargo Transport, American Roll On Roll Off, Liberty Global Logistics, Central Gulf Lines, and
Farrell Lines.
SIGAR Audit-12-4 Security/ANSF Vehicle Accountability                                                        Page 3
trucks by the SDDC contractor. According to CSTC-A, vehicles take approximately 75 to 100 days from
the time they come off the production line to the time they arrive in Afghanistan. Once they arrive in
Afghanistan, CSTC-A receives, processes, and prepares the vehicles for transfer to the ANA and ANP.

During transit from the manufacturer to Afghanistan, vehicles can sustain damage and losses due to
poor handling, pilferage, theft, damage, vandalism, and improper packaging. DOD Transportation
Discrepancy Reports (TDRs) are used to document any shipping discrepancies, and to claim
reimbursement from the commercial carriers for the discrepancies. In the case of vehicles provided to
the ANSF, CSTC-A is responsible for completing the TDRs and submitting them to SDDC, which serves as
the DOD TDR program manager for assisting CSTC-A and other components in resolving transportation
discrepancies. See figure 1.


Figure 1: Transportation Discrepancy Report Process




Source: SIGAR analysis of SDDC Ocean Cargo Clearing Authority South West Asia – Quality Assurance Customer Advisory,
April 11, 2011.

Following several audit reports by GAO and the DOD Office of Inspector General identifying deficiencies
in the registration and EUM for defense articles provided to Iraq, DOD, as required by Congress,
established requirements intended to improve accountability for defense articles provided by the
United States to Iraq and Afghanistan. 13 In January 2008, Section 1228 of the 2008 National Defense
Authorization Act required the President to implement a program of registration and EUM for defense
articles provided to Iraq. In response to the January 2009 GAO report citing significant lapses in
accountability of weapons provided to the ANSF, 14 the Assistant Secretary of Defense for Global Security
Affairs signed a memorandum requiring DSCA to develop a registration and monitoring program for
Afghanistan similar to the Section 1228 requirements for Iraq. In March 2009, CSTC-A established a
program office to comply with the memorandum and, in October 2009, DOD issued an instruction that

13
  See DODIG D-2009-099, Afghanistan Security Forces Fund Phase III – Accountability for Equipment Purchased for
the Afghanistan National Army, August 12, 2009; and DODIG D-2009-100, Accountability for Equipment Purchased
for the Afghanistan National Police, September 22, 2009.
14
 See GAO-09-267.
SIGAR Audit-12-4 Security/ANSF Vehicle Accountability                                                              Page 4
formalized registration and EUM requirements in Afghanistan, including defining certain vehicles as
lethal defense items that require additional oversight. 15 Also in October 2009, Section 1225 of the fiscal
year 2010 National Defense Authorization Act mandated the establishment of a registration and EUM
program in Afghanistan and codified DOD’s Afghanistan policy into law. 16


CSTC-A ACCOUNTED FOR VEHICLES PROVIDED TO THE ANSF, BUT DID NOT REGULARLY FILE
REPORTS FOR DAMAGE AND LOSS

TACOM LCMC provided UIIs for over 86 percent of vehicles ordered and shipped to Afghanistan from
October 2007 to December 2010, and CSTC-A was able to account for the disposition or location of
nearly all of these vehicles. CSTC-A also used the results of its inventory of ANA vehicles to reduce fuel
distribution for destroyed vehicles. However, CSTC-A did not regularly file claims for vehicles damaged
or equipment and parts lost or stolen during transit. As a result, CSTC-A did not receive reimbursement
for damage and loss from the SDDC transportation contractors. Instead, it paid separately for vehicle
repairs and the replacement of missing equipment and parts. Since we identified this issue in May 2011,
CSTC-A has improved its process for filing the necessary reports for reimbursement.

Recent Inventories Accounted for Nearly All Vehicles and Provided Opportunities for Fuel
Savings

According to TACOM LCMC data, CSTC-A ordered about 21,200 vehicles for the ANA and about 9,600
vehicles for the ANP between October 2007 and December 2010. TACOM LCMC’s records had UIIs for
about 84 percent (17,800) of the ANA vehicles and 93 percent (8,900) of the ANP vehicles. 17 Based on
projections from our random sample, CSTC-A had documentation on the location or disposition for
about 99 percent (17,600) of the 17,800 ANA vehicles and 100 percent of the 8,900 ANP vehicles. For
those vehicles transferred to the ANSF, CSTC-A documented the transfer for 95 percent (15,100) of ANA
vehicles and 100 percent of ANP (8,800) vehicles. In addition, CSTC-A used the results of its inventory of
ANA vehicles to review fuel distribution to the ANA and began to reduce fuel deliveries as the result of
vehicles that had been destroyed. As of November 20, 2011, CSTC-A had saved approximately $370,000
by reducing fuel deliveries by 200,000 liters. Overall, for the ANA during fiscal year 2012, we estimate
CSTC-A will save nearly $5 million by reducing fuel deliveries by approximately 2.68 million liters.

CSTC-A tracks vehicles provided to the ANSF by recording the UIIs for each vehicle and by requiring
documentation recording the transfer of accountability to the ANA or ANP. DOD Instruction 5000.64
requires DOD to maintain accountability of all property purchased with an acquisition cost of more than
$5,000. After arriving in Afghanistan, the vehicles are in the possession of CSTC-A and, therefore,
CSTC-A is required to maintain accountability until the vehicles are transferred to the ANSF. The
instruction further requires that all property records be kept current and that CSTC-A provide a
complete record of all transactions, that reflect current status and location until the property is formally

15
  DOD Instruction 4140.66 was signed on October 15, 2009, and updated September 7, 2010. The instruction
defines vehicles fitted or modified to accommodate Category I and Category II items on the U.S. Munitions List as
lethal items. Category I includes firearms, close assault weapons, and combat shotguns. Category II includes .50
caliber mortars and cannons.
16
 Pub. L. No. 111-84, 123 Stat. 2523-2525 (2009).
17
 TACOM LCMC was not required to record UIIs for vehicles and did not formally begin recording UIIs for vehicles
until August 2009. However, we were able to identify UIIs for these vehicles using a combination of receiving
documentation and existing UII lists. We used this data to randomly select 289 ANA and 289 ANP vehicles to test
CSTC-A’s accountability for vehicles provided to the ANSF.
SIGAR Audit-12-4 Security/ANSF Vehicle Accountability                                                       Page 5
transferred. Furthermore, FMS policy requires a U.S. representative delivering equipment to a foreign
nation to keep documentation showing when, where, and to whom the delivery was made and report
this information to the military organization responsible for procurement. Once TACOM LCMC procures
and DCMA accepts the vehicles, TACOM LCMC forwards the UII information to CSTC-A for entry into an
electronic database. When the vehicles arrive, CSTC-A reconciles the UIIs to shipment records and
inventories the equipment, preparing for transfer to the ANSF. 18

In January 2011, CSTC-A requested 4 months to work with the ANSF to conduct an inventory of all
U.S.-provided ANA and ANP vehicles. Senior CSTC-A leadership informed us that this inventory was a
command priority. According to CSTC-A officials, this was the first time that the ANSF had tracked
vehicles by UIIs and reconciled ANA and ANP property books to the vehicle inventory by UII. Although
MOI had an inventory planned before we announced this audit in November 2010, a senior CSTC-A
official credited our audit with enabling CSTC-A to put more emphasis on vehicle accountability.

As a result of CSTC-A’s nationwide inventory and document reconciliation efforts, CSTC-A accounted for
the location and disposition of nearly all of the vehicles we identified from TACOM LCMC’s data. On the
basis of our data analysis and tests of inventory records, CSTC-A accounted for over 99 percent 19
(17,600) of the 17,800 ANA vehicles procured and 100 percent of 8,900 ANP vehicles procured and
shipped to the ANSF from October 2007 to December 2010. Our results are projections based on the
results of a random sample of ANA and ANP vehicles. We also conducted limited testing of CSTC-A’s
system for tracking the current location of vehicles. We selected 34 vehicles from several ANA and ANP
sites and found that CSTC-A’s records were accurate regarding their locations. 20 Table 2 shows the
projected disposition of the 26,701 vehicles for which TACOM LCMC could provide UIIs. 21




18
  Most ANA vehicles are delivered to Depot 2, a U.S.-operated receiving point for vehicles near Kabul, run by ANA
personnel with the assistance of U.S. military and contractor personnel. The primary receiving and storage area
for ANP vehicles is the Coprin lot, located in Kabul and operated by a contractor to maintain property records for
vehicles received at the lot, process them for delivery, and help transfer them to the ANP.
19
  In the ANA sample, CSTC-A could not account for two High Mobility Multi-purpose Wheeled Vehicles of the 289
sample vehicles. CSTC-A provided documentation that (1) one of the vehicles was shipped to Afghanistan, but
CSTC-A had no evidence of its receipt, and (2) the second vehicle was received at Depot 2, but CSTC-A had no
documentation that the vehicle was issued.
20
  While vehicles issued to the ANP are to specific geographic locations, vehicles issued to the ANA are by unit and
therefore may not be consistently located in a single area, but rather a region. Therefore, if CSTC-A records
matched the unit of issuance, SIGAR noted CSTC-A as having knowledge of the vehicle’s location.
21
  These projections are based on the results of our randomly selected sample of 289 vehicles each for the ANA and
ANP from approximately 17,800 vehicles for the ANA and 8,900 vehicles for the ANP for which TACOM could
provide UIIs. We could not conduct similar testing for about 4,100 U.S.-procured vehicles for which UII number
records were not available. The ANA projections have a margin of error of plus or minus 890 vehicles and the ANP
projections have a margin of error of plus or minus 450 vehicles at the 95 percent confidence level.
SIGAR Audit-12-4 Security/ANSF Vehicle Accountability                                                        Page 6
Table 2: Projected Disposition of Vehicles With UIIs Procured and Shipped to the ANSF from October
2007 to December 2010
Service                  Issued         Awaiting       In Transit to   Destroyed in   Unaccounted    Total
Ordered                                 Issuance       Afghanistan           Route

ANA                      15,792             1,598               184             61           123    17,758

ANP                       8,819                93                31              0             0     8,943

Total                    24,611             1,691               215             61           123    26,701

Source: SIGAR analysis of a sample of ANA and ANP vehicles.

CSTC-A provided documentation for nearly all the vehicles it had transferred to the ANA or ANP.
According to DSCA’s Security Assistance Management Manual, the United States retains custody of
defense articles until delivery to the recipient country, and DOD policy requires that the consignee
acknowledge receipt and acceptance in writing. For Afghanistan, a Form 9 is used to officially document
receipt and acceptance by the ANSF. CSTC-A reported that its inventory accounted for 97 percent of
MOD Form 9s for vehicles issued to the ANA and 100 percent accountability for MOI Form 9s for the
ANP. CSTC-A used the 4-month vehicle inventory period to reconcile its own data and to create
databases to record the formal transfer information from MOD and MOI Form 9s, which created a way
to quickly and easily identify a transfer by UII.

Following our fieldwork in May 2011, CSTC-A used the results of the ANA inventory to review fuel
distribution to the ANA. In October 2011, CSTC-A began to reduce fuel distribution to accommodate for
vehicles it found had been destroyed. CSTC-A estimated that 1,400 destroyed vehicles were never
removed from ANA property books, resulting in CSTC-A providing fuel to the ANA for vehicles that were
not being used. As of November 20, 2011, CSTC-A had reduced deliveries by 200,000 liters and saved
approximately $370,000. Further reductions are expected by CSTC-A after it completes the fuel
distribution reduction for the ANA and conducts a similar review of ANP vehicles. For the ANA, we
estimate that in fiscal year 2012, CSTC-A will save almost $5 million for approximately 2.68 million liters
of fuel.

CSTC-A Did Not Regularly File for Reimbursement of Vehicle Damage and Losses Occurring
During Transit but Has Taken Steps to Do So

Before June 2011, CSTC-A did not file complete claim reports for reimbursement of vehicle damage and
losses occurring during transit and, therefore, was not reimbursed by the responsible carrier. Instead,
CSTC-A paid a contractor to make repairs and replace missing parts. However, once we identified this
issue in May 2011, CSTC-A began working with SDDC to file timely and accurate reports to seek
appropriate reimbursement from the responsible carrier and has submitted TDRs valued at more than
$530,000 to SDDC for processing. In November 2011, CSTC-A issued a comprehensive TDR standard
operating procedure and established formal mechanisms to record key information to claim
reimbursement.

According to the SDDC’s TDR process, once damage is identified, CSTC-A is required to annotate the
damage on the delivery receipt and notify the carrier within 7 calendar days to request inspection by the
carrier and relevant information. An investigation is then required to determine responsibility for
damage and the actual loss to the government. Information on the vehicle, to include the
transportation control number, the estimated cost of damage (ECOD), and any evidence of damage such

SIGAR Audit-12-4 Security/ANSF Vehicle Accountability                                                Page 7
as photographs are required to be submitted to SDDC to allow for claims processing and payment
requests to the carrier.

While CSTC-A had submitted some TDRs, it was unable to recover funds due to incomplete submissions.
SDDC provided us with 182 TDRs submitted from February 2009 through July 2010, which represented
at least 357 vehicles. 22 We found evidence that CSTC-A was reimbursed $325 for one of these TDRs.
We found that the most common reasons that TDRs were rejected were because they lacked a
transportation control number, ECOD, or shipping documentation.

In February 2009, a CSTC-A officer indicated to SDDC that TDRs were difficult to complete because
nobody was in charge of the TDR process at CSTC-A and CSTC-A did not have a standard operating
procedure that would have helped ensure that TDRs were submitted, as appropriate. Furthermore,
CSTC-A officials stated they did not have the personnel available to determine ECODs and process the
paperwork necessary for submitting a complete TDR. GAO recently reported similar concerns on TDRs
for pilferage and damage to U.S. military supplies and equipment transiting to Afghanistan and was told
by officials from several military units that the TDR process is time-consuming and complex. 23 As a
result of TDRs being continually rejected, CSTC-A stopped submitting TDRs to SDDC in January 2011.
However, vehicles continued to arrive with damage and missing parts. Between December 2010 and
June 2011, CSTC-A noted 1,267 instances of damaged equipment arriving at Depot 2 for the ANA.
Examples of the damage reported for ANA vehicles included broken mirrors, missing vehicle parts,
empty toolboxes, and missing fuel. CSTC-A did not have similar historical information for the ANP.

Photo 1: Radio Missing from ANP Bus




Source: CSTC-A.




22
 TDRs may contain claims for more than one vehicle, and TDRs submitted by CSTC-A did not always indicate the
number of vehicles damaged and contained in the claim.
23
 GAO-12-138, DOD Has Made Progress, but Supply and Distribution Challenges Remain in Afghanistan,
October 2011.
SIGAR Audit-12-4 Security/ANSF Vehicle Accountability                                                   Page 8
Because CSTC-A did not use the TDR process, it relied on two local maintenance contractors to repair
the vehicles or replace missing parts. 24 We attempted to obtain data regarding the total value of the
TDRs submitted since 2008, but because CSTC-A did not record ECODs, reliable estimates of the value of
damages were unavailable.

Once we pointed out CSTC-A was not submitting TDRs, CSTC-A took steps to address the reporting of
vehicle damage and losses. In May 2011, we attended a meeting between CSTC-A and SDDC personnel
in Kabul. We also shared our findings with senior CSTC-A leadership, who concurred with the need for
CSTC-A to complete TDRs. Since then, SDDC assigned a liaison officer to CSTC-A and arranged for bi-
weekly meetings with SDDC. In November 2011, CSTC-A issued a standard operating procedure and
formalized the TDR process. The standard operating procedure provides guidance on staff
responsibilities and specific timeframe requirements. Furthermore, CSTC-A established vehicle
inspections and an ECOD process with its maintenance contractors to provide valid estimates of
damages for TDRs.

As a result of these changes, CSTC-A improved the submission of complete, accurate, and timely TDRs,
increasing its chances for reimbursement. Between June and November 2011, CSTC-A completed
10 TDRs valued at over $339,000, and SDDC submitted them to the carrier for payment. CSTC-A
submitted another 15 TDRs valued at over $191,000 that are awaiting SDDC approval. CSTC-A has
24 TDRs in process, valued at almost $59,000.


CSTC-A’S EUM OF ANSF VEHICLES MET REQUIREMENTS, BUT ADDITIONAL FOLLOW UP IS
NEEDED

While CSTC-A met routine EUM requirements for U.S.-provided vehicles, CSTC-A does not have a system
in place to ensure that it addresses findings identified by its monitoring teams. During our May 2011
fieldwork, CSTC-A conducted a vehicle-specific EUM that included reviewing property books,
procedures, vehicle storage, vehicle location, and operational status. Following our fieldwork, CSTC-A
instituted additional EUM requirements for vehicles.

CSTC-A Is Required to Conduct Routine EUM of Vehicles

The CSTC-A Security Assistance Office is responsible for conducting routine EUM of vehicles provided to
the ANSF. According to the Security Assistance Management Manual, vehicles fall under routine EUM,
which is conducted in conjunction with other security assistance duties with no specified timelines.
Section 1228 of the 2008 National Defense Authorization Act increased the oversight for some FMS
items by calling for a EUM program for lethal defense articles and services. In its response to this
requirement, DOD included vehicles designed or modified to accommodate weapons. Many of the
vehicles provided to the ANSF are considered lethal defense items, including light tactical vehicles and
High Mobility Multi-purpose Wheeled Vehicles. CSTC-A’s EUM standard operating procedure provides
guidance for routine EUM and, for lethal defense articles, CSTC-A is required to conduct a visit to at least
one site or facility per quarter. During these visits, CSTC-A is required to (1) verify that the end-use of
lethal defense articles is in compliance with the purposes for which they were furnished as established
by the FMS case; (2) inspect and cross-reference property books, hand receipts, and appropriate
documentation of losses, transfers, destruction, or damage; (3) conduct installation physical security

24
 In fiscal year 2011, CSTC-A had two maintenance contracts—one valued at $36 million for ANA vehicles and one
valued at $62 million to operate 26 ANP maintenance sites throughout Afghanistan. Both contractors also repaired
vehicles that arrived with damage or missing parts.
SIGAR Audit-12-4 Security/ANSF Vehicle Accountability                                                    Page 9
inspections and spot check inventories of lethal defense articles; (4) reconcile all data with ANSF and
coalition personnel; (5) take photographs of the visit; and (6) make appropriate notation of any
discrepancies.

CSTC-A Met Routine EUM Requirements but Follow Up on Findings Is Needed

We reviewed CSTC-A EUM reports from January 2010 through March 2011 and found that CSTC-A met
routine EUM requirements within its standard operating procedures. While CSTC-A’s requirement is
one site visit per quarter, CSTC-A completed 15 EUM reports between January 2010 and March 2011. 25
During this timeframe, CSTC-A visited 44 locations and inspected vehicles at 28 of these locations.

During our fieldwork in May 2011, CSTC-A conducted a vehicle-specific EUM with checks beyond routine
EUM requirements. Following our fieldwork, CSTC-A instituted a vehicle specific checklist, which
requires CSTC-A EUM teams to validate the ANSF’s accountability and use of vehicles. As a result,
CSTC-A EUM teams now review property books and maintenance records; reconcile property book
entries; and inspect vehicles on hand and spot check their accuracy in the property books, including,
accounting for destroyed vehicles.

While CSTC-A’s vehicle monitoring has found some issues, it did not have a system to track these
findings to ensure that they were addressed. During the period January 2010 through March 2011,
CSTC-A EUM teams identified the following issues with vehicles:

     •   A March 2010 EUM trip to the Kandahar ANP headquarters found a lack of records for issued
         vehicles.
     •   In an August 2010 trip to an ANA facility in Paktiya, ANA personnel reported to CSTC-A that
         vehicles were frequently being used without permission and senior ANA leadership issued
         vehicles for unofficial business. The use of vehicles for other than official business is a direct
         violation of the conditions under which they were provided. The EUM team recommended that
         the mentors assist the ANA personnel in establishing an internal vehicle tracking system to
         ensure authorized use and accountability.
     •   During the same August 2010 trip, ANA personnel at two different facilities reported to CSTC-A
         that vehicle repairs were taking over a year and that the contractor had taken little or no action
         to rectify the delays. The EUM team recommended that the appropriate CSTC-A offices
         investigate these delays.
     •   In a December 2010 trip to an ANP substation in Kandahar, the EUM team found a number of
         badly damaged or destroyed vehicles. U.S. mentors assigned to the ANP substation noted a
         general lack of tracking and accountability. Furthermore, destroyed vehicles were not removed
         from the property books, which resulted in the substation receiving surplus fuel allocations. The
         EUM team recommended that the vehicles be removed from the property books.

Although appropriate offices and CSTC-A leadership were notified of issues such as these, CSTC-A had no
process in place to follow up with these offices to ensure they were corrected. According to CSTC-A,
because these vehicle inspections were conducted under routine EUM there was no requirement for


25
  In February 2011, DSCA conducted its first compliance assessment of CSTC-A and gave it a rating of
“Satisfactory,” the highest rating possible. DSCA noted that CSTC-A had implemented a monitoring program for all
lethal defense articles provided to the ANSF in accordance with the guidelines set forth in DOD Instruction 4140.66
and kept detailed records of the origin, shipping, and distribution of defense articles.
SIGAR Audit-12-4 Security/ANSF Vehicle Accountability                                                      Page 10
any additional monitoring. However, given some of the issues identified by EUM teams, CSTC-A should
monitor and assess whether they are being addressed.


CONCLUSION

As the U.S. military transfers responsibility to the ANSF to provide for Afghanistan’s security, providing
vehicles to the ANSF is a critical component of CSTC-A’s equipping mission and the overall transition
strategy. While CSTC-A was able to account for nearly all vehicles shipped between October 2007 and
December 2010, it did not ensure that it properly filed for damages and losses that occurred during
shipping to Afghanistan. Doing so would help ensure that the United States is not expending funds
unnecessarily for repairs and for the replacement of missing equipment and parts. Once we identified
this issue, CSTC-A made significant progress in filing claims to receive reimbursement for damage and
pilfered items. In addition, although CSTC-A improved its oversight of U.S. provided vehicles, CSTC-A did
not have a system to ensure that EUM findings are addressed.


RECOMMENDATION

Because CSTC-A took steps during the course of our audit to inventory ANSF vehicles and file TDRs, we
are not making any recommendations addressing these matters. To enhance steps taken to improve
oversight of vehicles provided by the United States, we recommend that the Commanding General,
CSTC-A:

    1. Establish a system to track and follow up on vehicle issues identified in EUM inspections,
       including status updates by the parties involved to ensure resolution of the findings.


COMMENTS

CSTC-A provided written comments on a draft of this report, which are reproduced in appendix II. In its
response, CSTC-A concurred with the recommendation and noted that it has instituted a process to
track and follow-up on EUM findings. In addition, DSCA provided technical comments, which we have
incorporated, as appropriate.




SIGAR Audit-12-4 Security/ANSF Vehicle Accountability                                               Page 11
APPENDIX I: SCOPE AND METHODOLOGY

This report provides the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s (SIGAR) review of accountability of U.S.-provided vehicles to the Afghan National
Security Forces (ANSF). We initiated this audit to determine how the Department of Defense (DOD)
implemented vehicle tracking requirements in Afghanistan. Specifically, our objectives were to
(1) determine whether the Combined Security Transition Command-Afghanistan (CSTC-A) could account
for the vehicles it provided to the ANSF and (2) assess CSTC-A’s oversight for the vehicles provided.

Overall, to address these objectives, we met with officials from the Defense Security Cooperation
Agency (DSCA), TACOM Life Cycle Management Command (TACOM LCMC), CSTC-A, the Afghan Ministry
of Defense (MOD), and the Afghan Ministry of Interior (MOI). We reviewed applicable legislation and
DOD, DSCA, and CSTC-A guidance and related documents regarding asset accountability and oversight.

To determine CSTC-A’s ability to account for vehicles purchased for the ANSF, we developed a random
sample of vehicles provided to the ANSF. In discussions with CSTC-A, we agreed to define vehicles as
equipment that is self-propelled.

    •   Based on data provided by TACOM LCMC, we compiled detailed information on 30,761 vehicles
        from Foreign Military Sales (FMS) cases for the ANSF from October 2007 to December 2010. We
        identified the types, quantity, and shipment dates by reviewing information provided by TACOM
        LCMC. For each FMS case, we compiled lists of unique item identifiers (UII) using FMS case
        records and shipping and receiving documentation. However, TACOM LCMC was not required
        to record UIIs for vehicles and did not formally begin recording UIIs for vehicles until August
        2009. Nevertheless, we identified UIIs for 26,701 vehicles using a combination of receiving
        documentation and existing UII lists, which we assembled into a single spreadsheet.

    •   We selected 289 vehicles for the Afghan National Army (ANA) and 289 vehicles for the Afghan
        National Police (ANP), for a total of 578 vehicles. We based this selection on creating individual
        samples for the ANA and ANP with a 95 percent confidence interval (i.e., plus or minus
        5 percentage points). This interval would contain the actual population value for 95 percent of
        the samples we could have drawn. The ANA projections have a margin of error of plus or minus
        890 vehicles and the ANP projections have a margin of error of plus or minus 450 vehicles at the
        95 percent confidence level.

We determined that the computer processed data were sufficiently reliable for the purposes of this
report by verifying the UIIs in our sample of 578 vehicles with CSTC-A records and physical verification.

To determine whether CSTC-A could identify the location or disposition of a vehicle issued to the ANA or
ANP, we relied on CSTC-A transfer documentation. For vehicles that had arrived in Afghanistan, but
were still in U.S. possession, we physically validated that the vehicle was at the holding facility. For
vehicles that were still in transit to Afghanistan, we relied on shipping reports provided by CSTC-A. To
address CSTC-A’s use of transportation discrepancy reports (TDR), we requested all CSTC-A TDRs
submitted to the U.S. Military Surface Deployment and Distribution Command (SDDC), reviewed each
TDR, and identified whether or not CSTC-A had complied with SDDC guidance.

To assess CSTC-A’s oversight of the U.S. provided vehicles, we reviewed end-use monitoring (EUM)
reports for the period January 2010 through March 2011. For each report, we determined whether
CSTC-A met the criteria contained in its EUM standard operating procedures and whether CSTC-A


SIGAR Audit-12-4 Security/ANSF Vehicle Accountability                                              Page 12
conducted routine EUM of vehicles. During our fieldwork in May 2011, CSTC-A conducted a EUM
inspection at an ANA facility and walked us through the process.

We assessed internal controls over CSTC-A vehicle accountability and oversight procedures through
interviews, site visits, and tests with our random sample of 578 vehicles purchased for the ANSF. The
results of our assessment are included in the body of this report.

We conducted work in Washington, D.C.; TACOM LCMC in Harrison Township, Michigan; and Kabul and
Mazar-e-Sharif, Afghanistan, from December 2010 to December 2011. To allow time for TACOM LCMC
to gather UII information and for CSTC-A to conduct a nationwide inventory of U.S. provided vehicles,
we suspended our work from January 2011 to April 2011. We conducted our work in accordance with
generally accepted government auditing standards. These standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives. This audit was conducted under
the authority of Public Law No. 110-181, as amended; the Inspector General Act of 1978; and the
Inspector General Reform Act of 2008.




SIGAR Audit-12-4 Security/ANSF Vehicle Accountability                                           Page 13
APPENDIX II: COMMENTS FROM THE NATO TRAINING MISSION-AFGHANISTAN/COMBINED
SECURITY TRANSITION COMMAND-AFGHANISTAN




SIGAR Audit-12-4 Security/ANSF Vehicle Accountability                Page 14
           (This performance audit was conducted under the audit project code SIGAR-031A).




SIGAR Audit-12-4 Security/ANSF Vehicle Accountability                                        Page 15
SIGAR’s Mission               The mission of the Special Inspector General for Afghanistan
                              Reconstruction (SIGAR) is to enhance oversight of programs for
                              the reconstruction of Afghanistan by conducting independent
                              and objective audits, inspections, and investigations on the use
                              of taxpayer dollars and related funds. SIGAR works to provide
                              accurate and balanced information, evaluations, analysis, and
                              recommendations to help the U.S. Congress, U.S. agencies, and
                              other decision-makers to make informed oversight, policy, and
                              funding decisions to:
                                 •   improve effectiveness of the overall reconstruction
                                     strategy and its component programs;
                                 •   improve management and accountability over funds
                                     administered by U.S. and Afghan agencies and their
                                     contractors;
                                 •   improve contracting and contract management processes;
                                 •   prevent fraud, waste, and abuse; and
                                 •   advance U.S. interests in reconstructing Afghanistan.

Obtaining Copies of SIGAR     To obtain copies of SIGAR documents at no cost, go to
Reports and Testimonies       SIGAR’s Web site (www.sigar.mil). SIGAR posts all publically
                              released reports, testimonies, and correspondence on its Web
                              site.

To Report Fraud, Waste, and   To help prevent fraud, waste, and abuse by reporting allegations
Abuse in Afghanistan          of fraud, waste, abuse, mismanagement, and reprisal contact
Reconstruction Programs       SIGAR’s hotline:
                                 •   Web: www.sigar.mil/fraud
                                 •   Email: hotline@sigar.mil
                                 •   Phone Afghanistan: +93 (0) 700-10-7300
                                 •   Phone DSN Afghanistan 318-237-3912 x7300
                                 •   Phone International: +1-866-329-8893
                                 •   Phone DSN International: 312-664-0378
                                 •   U.S. fax: +1-703-604-0983

Public Affairs                Public Affairs Officer
                                 •   Phone: 703-545-5974
                                 •   Email:sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                 •   Mail: SIGAR Public Affairs
                                     2530 Crystal Drive,
                                     Arlington, VA 22202
